Supreme Court, U.S.
FILED

CASE Number:

JUL 2 3 2021

2M/1

OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES

VERNON DECK
Petitioner,
Vs.

WELLS FARGO BANK, N.A., ET AL
Respondent(s)

ON PETITION FOR WRIT OF CERTIORARI
TO THE NINTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

RECEIVED
IUL 2 7 2021

Vernon Deck,
Represented In pro se
112 Hawthorne Loop
Roseville, CA
-(805) -598-8206---------

QUESTIONS
l) When a foreign National claims Citizenship on escrow documents, but is not a
citizen, is that Mortgage Valid or VOID?

2) Since Escrow Instructions are equally binding on each party signing the same
Mortgage, Is the mortgage binding on the parties when one party (in bad faith)
intentionally fails to sign as prepared, and required by the Escrow Instructions?

3) Prior to a mortgage being discharged in a Bankruptcy Chapter- 7, after a
National Bank withdraws its Motion to lift the Automatic Stay, Is it legal for
them to reassign it to another National Bank for the express purpose of
collection, while the Automatic Stay is firmly in place?

Can the assignee

legally attempt to collect within the same stay?

4) The Ninth Circuit determined this pro se litigant clearly had Standing, then
Reversed and Remanded it back to the Eastern District Court for review! it was
DISMISSED without further hearing, claiming gamesmanship (41(b)), and never
reached any merits. Did the District Court have disgression to ignore the 9th
Circuit’s authority? (Sherman Act, 15 U.S.C.S. §§ 1,2)

5) In light of the 14th Amendment to the US Constitution, Does the trial courts’
refusal to hear the Merits, denying the Due Process of Law, fatally over-rule a
citizen’s right to be heard?

6) Will this Court impose exemplary damages upon the National Banks! Mortgage
companies! Investors! attorneys! and their associates, who wrongfully strip, or
move to strip, Homeowners to stop their Primary Residences through repeated
reassignments and broken chains of title? (Frauds)
7) Following Wells Fargo- Bank’s-Hinlawful - Assignment, US Bank’s—wrongfulforeclosure sale was fraudulently predicated on a DOT from 2002, and ignored
3

the 2008 QCD granting full ownership back to the husband as sole-purchaser
(circa 1999).

With the Broken Chain of Title, Will this court expunge such

Transfers and Sales?
(FRAP 43(B); the Fourteenth Amendment; and U.S.C. § 1701j-3(d)(7), pre­
emptions of due on sale)
8) The refinance was on $ 274,000 of principal ($338K with costs, and offset with
$32,000 cash, for a $306K refi); only the purchasing spouse made payments
[totaling $ 379,619.74]; after the BK 7 discharge the foreclosure sale was for one
penny over an inflated sale price of $ 539,455.59, and the only vested homeowner
lost his home and every dollar invested since 1999. Will the practice of these
violations

of

unjust

enrichment;

unclean

hands!

and

undeserved

impoverishment, be sharply rectified nationally?

9) How will the Supreme Court of the United States affirmatively end the lenders,
and their accomplices, predatory schematic of mortgage and title fraud against
homeowners?

4

PETITION FOR WRIT OF CERTIORARI
Appellant’s relentless pursuit to be heard on the merits by an impartial court has
not waivered... Appellant has endured! The Magistrate Judge in the EDO, made it
crystal clear that for this Appellant it was going to be very difficult for him in
Federal court, at his very first appearance. The court even suggested the voluntary
withdrawal of his legally credible claim, which screams to have the merits heard,
but lacking a proper judicial opportunity. Plaintiff was sanctioned $250 by the
Magistrate under the mistaken guise of “gamesmanship” calling it a Rule 41(b)
error for failing to prosecute. It was, in fact, the court which refused to entertain
any

merits

contained

in

the

Original

or

two

Amended

complaints.

Unequivicabally, it was NOT that the Petitioner failed to present them!
heard is a right of law under the 14th Amendment.

To be

Moreover, some form of

hearing is required before an individual is finally deprived of a property, or a
liberty interest. In other words, Parties whose rights are to be affected are entitled
to be heard (Baldwin v. Hale, 68 U.S. (l Wall.) 223, 233 (1863). Magistrate Kendall
even stood up to conclude the Evidentiary Hearing and threaten the pro se litigant
by raising his voice and claiming to refer him for criminal prosecution.

The

‘gamesmanship’ was then linked to a Rule 41(b) accusation of “Failure to
Prosecute” Appellant’s claims. This is absolutely fallible. What constitutes the
Failure to Prosecute, is generally defined as an “intention to thwart progress? as a
delaying tactic. When in fact, a dismissal for failure to prosecute is proper only
where the plaintiff demonstrates actions to avoid conclusion.

This appellant

continues pressing on, despite the obstacles, even those by the Magistrate. See In
re: Will of Kersey, 176 N.C. App. 748, 751, 627, S.E.2d 309, 311 (2006); Green v.
Eure, 18 N.C. App. 671, 672, 197 S.E.2d 599, 601 (I973)(citing 5 Moore’s Federal
Practice, para 41.11(2))
Where the appeal of a Rule 41(b) dismissal alleges an error of law, the Court of
Appeals may proceed on grounds that l) the trial court did not make the required
findings of fact to support Dismissal; or 2) (as there is in this case) that there was.
-as-a-matter-ofiawrno-“failure-to~prosecute:”~This~at)peIlant~has~demonstrated~f6r~
eighteen years, his genuine pursuit to conclude these matters the proper way by
1

rule of the courts, because it was not resolved at the time of his divorce in 2005, or
2008, or 2013, or even in the federal court in 2017 or 2019.

Most accurately,

Appellant, Vernon Deck would submit IT WAS NOT a “Failure to Prosecute”, but
rather... ”A FAILURE -TQ-RESOLVE “by the courts and certainly by intent of
opposing counsel.

It would be fair to describe this 18-year nightmare as:

The

Classic ‘UnendingDivorce... gone sideways!

RECUSAL WAS REQUESTED 1/07/18 (Dkt. 66). Denied 1/09/18, (Dkt. 68).

The Appeal to SCOTUS, is intended to be heard on merits against Appellants, for
National Jurisdiction of Mortgage Fraud; Unjust Enrichment; and undeserved
impoverishment intended to strip Appellant Deck of ALL Equity; Investment;
Rights, and use since 1999; to unlawfully claim ownership of his Primary
Residence through the illegal Non-Judicial Foreclosure Sale. There were fatally
flawed Transfers culminating in the wrongful foreclosure sale, with a Broken
Chain of Title. The 2002 DOT was superseded by the signed Nov. 4, 2008 QCD (as
one term of the Marital Settlement Agreement (MSA) in their Divorce,
relinquishing all of Heather Summerby’s rights in the subject property at: 1124
Hawthorne Loop, Roseville, CA 95678, back to her ex-husband Vernon Ray Deck.
All parties and entities since the January 10, 2012 Filing of Summerby’s QCD in
Placer County California, would have reasonably known Vernon Ray Deck was the
sole owner on title the subject property, by Title search, Lis Pendence on file, or the
Placer County Tax Assessor’s records.
Redwood Holdings, LLC falsely claimed a legal purchase from US Bank, N.A. and
its cohorts with the express intent to steal the subject property from Vernon Ray
Deck without paying him any compensation. It also eliminated Heather
Summerby’s entire obligation on the Note she demanded was her sole obligation,
without any of her personal funds ever involved, since her 2002 signing. Thus,
harming Deck beyond reason of equity and law by undeserved impoverishment.

2

LIST OF PARTIES
■ Heather Ann Summerby —
■ Chase Manhattan Mortgage Co.
■ Option One Mortgage Co. (Now, Sand Canyon Corp.)
- Wells Fargo Bank N.A. (Trustee for Option One)
■ US Bank N.A. Chalet Series III Trust 2003-1
- US Bank N.A. Lodge Series III Trust 2003-1
- Stewart Title of Sacramento
- American Home Mortgaging Servicing, Inc.
- Homeward Residential
- Ocwen Loan Servicing
- MTGLQ (Investment group of Goldman Sachs)
- SN Servicing Corporation
- Preston Ridge Partners, LLP. (Owned NOTE at time of SALE)
- Power Default Services, Inc.
- Prestige Default Servicers
- Houser & Allison, APC- W/F Bank
- Ghidotti - Berger (US Bank, N.A./SN Servicing)
- Redwood Holdings, LLC
- William Fogelman, Esq. (SN Servicing)
- Law Offices of Sam Chandra, LLC (Redwood Partners)
- Wedgewood, LLC

** Appellant has no corporate connections.**

5

TABLE OF CONTENTS

SECTION SUBJECT

PAGE

PETITION FOR WRIT OF CERTIROARI

1

QUESTIONS..............................................

3

PARTIES.....................................................

5

AUTHORITIES

711

CITATIONS OF OPINIONS

12

BASIS OF JURISDICTION

12

CONSTITUTIONAL PROVISIONS

13

STATEMENT OF THE CASE

1317

OTHER RELEVANT HISTORY

17-18

REASONS FOR GRANTING WRIT

18-19

STATEMENT OF NOTIFICATIONS

19

DIRECT ARGUMENT

20

CONCLUSIONS

20-21

APENDIX A... JUDGMENTS TO REVIEW

22

APENDIX B...OTHER ESSENTIAL MATERIAL

23

RULE 33.1 Guidelines and Word Count Certification

6

FOLLOWS

AUTHORITIES
FRCP RULE 60(b) FRCP Rule 60(b) provides that the court may relieve a party
from a final judgment and sets forth the following six categories of reasons for
which such relief may be granted: (l) mistake, inadvertence, surprise, or excusable
neglect; (2) newly discovered evidence which by due diligence could not have been
discovered in time to move for a new trial under Rule 59; (3) fraud,
misrepresentation, or misconduct by an adverse party; (4) circumstances under
which a judgment is void; (5) circumstances under which a judgment has been
satisfied, released, or discharged, or a prior judgment upon which it is based has
been reversed or otherwise vacated, or it is no longer equitable that the judgment
should have prospective application; or (6) any other reason justifying relief from
the operation of the judgment. F.R.C.P. Rule 60(b)(1)-(b)(6). To be entitled to relief,
the moving party must establish facts within one of the reasons enumerated in
Rule 60(b).
12 U.S. Code § 2605: Servicing of mortgage loans and administration of escrow
accounts: Federal Rule of Civil Procedure 17(a)(1) which requires that "[a]n action
must be prosecuted in the name of the real party in interest." See also, In re
Jacobson ,402 B.R. 359, 365-66 (Backrow. Wash. 2009); In re Hwang, 396B.R. 757,
766-67 (Bankr. C.D. Cal. 2008).
When appeal is taken from a void judgment, the appellate court must declare the
judgment void, because the appellate court may not address the merits, it must set
aside the trial court's judgment and dismiss the appeal. A void judgment may be
attacked at any time by a person whose rights are affected. See El-Kareh v. Texas
Alcoholic Beverage Comm'n, 874 S.W.2d 192, 194 (Tex. App.—Houston [14th Dist.]
1994, no writ); see also Evans v. C. Woods, Inc., No. 12-99-00153-CV, 1999 WL
787399, at *1 (Tex. App.—Tyler Aug. 30, 1999, no pet. h.).
Federal Rule of Civil Procedure 17(a)(1) which requires that "[a] action must be
prosecuted in the name of the real party in interest. “See also, In re Jacobson, 402
B.R. 359, 365-66 (Bankr. W.D. Wash. 2009); In re Hwang, 396 B.R. 757, 766-67

7

(Bankr. C.D. Cal. 2008). Mortgage Electronic Registration Systems, Inc. v. Chong,
824 N.Y.S.2d 764 (2006). MERS did not have standing as a real party in interest
under the Rules to file the motion. The declaration also failed to assert that MERS,
FMC Capital LLC or Homecomings Financial, LLC held the Note.
The 14th amendment of the United States Constitution gives everyone a right to
due process of law, which includes judgments that comply with the rules and case
law. Most due process exceptions deal with the issue of notification. If, for example,
someone gets a judgement against you in another state without your having been
notified, you can attack the judgement for lack of due process of law. In Griffen v.
Griffen, 327 U.S. 220, 66 S. Ct. 556, 90 L. Ed. 635a pro se litigant won his case in
the Supreme Court who stated
The Fourteenth Amendment states: No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United States; nor shall
any state deprive any person of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal protection of the laws.
U.S. Const, amend. XIV
All sales of real estate, made under powers contained in mortgages or deeds of
trust contrary to the provisions of this article, shall be null and void,
notwithstanding any agreement or stipulation to the contrary. (Code 1907, §4134;
Code 1923, §7849; Code 1940, T. 7, §561.). Citing Kluge v Fugazy, the Court (Katz
v East-Ville Realty Co., 249 AD2d 243 16 [1st Dept 1998], held that "[p]plaintiffs
attempt to foreclose upon a mortgage in which he had no legal or equitable interest
was without foundation in law or fact.”
There was No Due Process prior to the illegal foreclosure March 1, 2021 recorded
in Placer County, CA. Fraud upon the Court without lack of standing on a Void
Judgment, is illegal. A Remand will not support No Due Process Law after the
crime was committed based upon Fraud Upon The Court. Constitutional Laws
were violated here. Under Federal Law when a rule providing for relief from void
judgments is applicable, relief is not discretionary matter, but is mandatory,
8

Orner. V. Shalala, 30 F.3d 1307 (Cob. 1994). Judgment is a void judgment if court
that rendered judgment lacked jurisdiction of the subject matter, or of the parties,
or acted in a manner inconsistent with due process, Fed. Rules Civ. Proc., Rule
60(b)(4),28 U.S.C.A., U.S.C.A. Const. Amend. 5 - Klugh v. U.S., 620 F.Supp. 892
(D.S.C. 1985). aw which is applicable to all states, the U.S. Supreme Court stated
that if a court is "without authority, its judgments and orders are regarded as
nullities. They are not voidable, but simply void; and form no bar to recovery, even
prior to a reversal in opposition to them. They constitute no justification; and all
persons concerned in executing such judgments or sentences, are considered, in
law, as trespassers. A Party Affected by VOID Judicial Action Need Not APPEAL.
State ex rel. Latty, 907 S.W.2d at 486. It is entitled to no respect whatsoever
because it does not affect, impair, or create legal rights." Ex parte Spaulding, 687
S.W.2d at 745 (Teague, J.,concurring).
When rule providing for relief from void judgments is applicable, relief is not
discretionary matter, but is mandatory, Omer. V. Shalala, 30 F.3d 1307 (Cob.
1994). This cannot be ignored its fact recorded! Judgment is a void judgment if
court that rendered judgment lacked jurisdiction of the subject matter, or of the
parties, or acted in a manner inconsistent with due process, Fed. Rules Civ. Proc.,
Rule 60(b)(4), 28 U.S.C.A., U.S.C.A. Const. Amend. 5 —Kiugh v. U.S., 620 F.Supp.
892 (D.S.C. 1985).
What Constitutes Failure to Prosecute a) General Guidance i) “Intention to thwart
progress” or “delaying tactic” required “Dismissal for failure to prosecute is proper
only where the plaintiff manifests an intention to thwart the progress of the action
to its conclusion, or by some delaying tactic plaintiff fails to progress the action
toward its conclusion.” In Re Will of Kersey, 176 N.C. App. 748, 751, 627 S.E.2d
309, 311 (2006); Green v. Eure, 18 N.C. App. 671, 672, 197 S.E.2d 599, 601 (1973)
(citing 5 Moore's Federal Practice, para. 41.11(2))
Cases Holding No “Failure to Prosecute” As a Matter of Law i) Where Actions of
Attorney Could Not Be Imputed to Claimants (1) Barclays American Corp. v.
Howell, 81 N.C. App. 654, 657-58, 345 S.E.2d 228, 230-31 (1986). Reversing, in a
9

strongly-worded opinion, the dismissal of plaintiffs action where his attorney had
filed a motion to withdraw a few days before trial date and did not communicate to
his client that trial date had been set. Rejecting the notion that the client was
required to know of the trial date as a matter of ordinary prudence. Holding that
the plaintiffs failure to attend trial was “excusable as a matter of law.
De Novo Where the appeal of a Rule 41(b) dismissal alleges an error of law, the
Court of Appeals reviews the matter de novo. Appeals in this context have
proceeded on grounds that (l) the trial court did not make the required findings of
fact to support the dismissal; or (2) that there was, as a matter of law, no “failure to
prosecute”. See Sections (3) and (4) above
Mathews v. Eldridge, 424 U.S. 319. 333 (1976). “Parties whose rights are to be
affected are entitled to be heard.” Baldwin v. Hale, 68 U.S. (l Wall.) 223, 233
(1863).
The FDCPA(Fair Debt Collection Practices Act (1978) 15 U.S.C § 1692e “The
FDCPA broadly prohibits a debt collector from using ‘any false, deceptive, or
misleading representation or means in connection with the collection of any debt.”
In addition to the administrative enforcement, the FDCPA provides for private
rights of action against debt collectors, and permits debtors to recover actual
damages, and attorneys’ fees and cost for violations of its terms.” 15U.S.C. § 169n.
Stay violations occur when a creditor takes actions that are prohibited by the
automatic stay provision of the bankruptcy code, which is found at 11 U.S.C. § 362,
“As a general rule, the filing of a bankruptcy petition operates as a stay against
actions affecting the property of the bankruptcy estate. 11 U.S.C. § 362(a). Because
the stay takes effect upon filing, without the need for further action, it is often
referred to as an ‘automatic’ stay.” In re Nelson, 994 F.2d 42, 44 (1st Cir. 1993).
The automatic stay sweeps broadly, enjoining the commencement or continuation
of any judicial,

administrative, or other proceedings against the

debtor,

enforcement ofiprior judgments, perfeeti©n-of4iensy and “any-aet to- collect, ■ a-ssessor recover a claim against the debtor that arose before the commencement of the
10

case.” 11 U.S.C. § 362(a)(6). “The automatic stay created upon the filing of a
bankruptcy petition ... does not require actual notice to be effective and, for the
most part, prevents a creditor from taking any action to collect a pre-petition debt
regardless of notice.” Vargason, 260 B.R. 488, 492 (Bankr. D.N.D. 2001).
“The Homeowner Bill of Rights (Civ. Code, §§ 2920.5, 2923.4-2923.7, 2924, 2924.92924.12, 2924.15, 2924.17-2924.20) (HBOR), effective January 1, 2013, was
enacted ‘to ensure that, as part of the non-judicial foreclosure process, borrowers
are considered for, and have a meaningful opportunity to obtain, available loss
mitigation options, if any, offered by or through the borrower’s mortgage servicer,
such as loan modifications or other alternatives to foreclosure.’ (§ 2923.4, subd. (a).)
Among other things, HBOR prohibits ‘dual tracking,’ which occurs when a bank
forecloses on a loan while negotiating with the borrower to avoid foreclosure. (See §
2923.6.) HBOR provides for injunctive relief for statutory violations that occur
prior to foreclosure (§ 2924.12, subd. a)),

and monetary damages when the

borrower seeks relief for violations after the foreclosure sale has occurred (§
2924.12, subd. (b)).” (Valbuena v. Ocwen Loan Servicing, LLC (2015) 237
Cal.App.4th 1267, 1272 [188 Cal.Rptr.3d 668].)
A material violation found by the court to be intentional or reckless, or to result
from willful misconduct, may result in a trebling of actual damages or statutory
damages of $50,000. ‘A court may award a prevailing borrower reasonable
attorney’s fees and costs in an action brought pursuant to this section.’” (Valbuena,
supra, 237 Cal.App.4th at p. 1273.internal citation omitted.)

11

CITATIONS OF OPINIONS
PAGE

Baldwin v. Hale, 68 U.S. (1 Wall.) 223, 233 (1863)
Green v. Eure, 18 N.C. App. 671, 672, 197 S.E.2d 599, 601 (1973)

1,10
1

(Citing 5 Moore’s Federal Practice, para 41.11(2))
Griffen v. Griffen, 327 U.S. 220, 66 S. Ct. 556, 90 L. Ed. 635

8

Hwang, In re: 396B.R. 757, 766-67 (Bankr. C.D. Cal. 2008)

7

Jacobson , 402 B.R. 359, 365-66 (Backrow. Wash. 2009)

7

Katz v East-Ville Realty Co., 249 AD2d 243 16 [1st Dept 1998]

8

Klugh v. U.S., 620 F.Supp. 892 (D.S.C. 1985)

9

Latty, State ex rel.: 907 S.W.2d at 486

9

Orner v. Shalala, 30 F.3d 1307 (Colo. 1994)

9

Nelson, In re: 994 F.2d 42, 44 (1st Cir. 1993)
Valbuena v. Ocwen Loan Servicing, LLC (2015) 237 Cal.App.4th 1267,

10
11

1272 [188 Cal.Rptr.3d 668]
Valbuena, supra, 237 Cal.App.4th at p. 1273. citation omitted

11

Valley v. Northern Fire & Marine Ins. Co., 254 U.S. 348, 41 S. Ct. 116 (1920)

11

Vargason, 260 B.R. 488, 492 (Bankr. D.N.D. 2001)

11

Will of Kersey, 176 N.C. App. 748, 751, 627, S.E.2d 309, 311 (2006)

1,9

Williamson v. Berry, 8 HOW. 945, 510, 12 L. Ed. 1170, 1189 (1850)

11

JURISDICTION
This court has jurisdiction on a void judgment and constitutional issues. 28 U.S.C.
§ 1254 (l). There is diversity of citizenship between the parties and the amount in
controversy exceeds the sum of $75,000. The district court had jurisdiction under
28 U.S.C. § 1332(a).
Under the Fourteenth Amendment of the U.S. CONSTITUTION, Appellant has the
Right to Be Heard and the Rights to Life, Liberty, and the possession of property.

12

The statutory provision believed to confer on this Court jurisdiction to review on a
writ of certiorari the judgment or order in question is as follows^
When appeal is taken from a void judgment, the appellate court must declare the
judgment void, because the appellate court may not address the merits; it must
set aside the trial court's judgment and dismiss the appeal.

CONSTITUTIONAL AND STATUTORY PROVISIONS
The IVX Amendment of the U.S. Constitution Federal Rules of Appellate Procedure
17(a)(1) -17(a)(2)
FRAP 25(a)(2)(B) and
RULE 60(b) (1) (2) (3) (4) (6) 60(d) (1) (2) (3)
12 USC 2605 Governed Laws and Security Laws
Sections 17(a)(2) and 17(a)(3) of the Securities Act of 1933
Section 21C of the Exchange Act of 1934 and
Sections 13(a), 13(b)(2)(A) and 13(b)(2)(B) of the Exchange Act
And, Rules 12b-20,13a-1,13a-ll, 13a-13.
28 U.S.C. §1254(1)
28 U.S.C. §1332(a)
Cal. Civ. Code §2924 HBOR Cal. Civ. Code §2924.17 HBOR Cal. Civ. Code §2924(a) HBOR -

STATEMENT OF THE CASE
Eastern District Court of California - Sacramento, the Jurisdiction is predicated on
ITNafional case witlTdiverse citizens locate'd'in_diffeTing'States7Tlie~EDC'errantly'
ruled Deck had No Standing. It was Reversed & Remanded by the 9th Circuit upon
13

the Ruling Appellant factually does have Standing as a mortgagor. On Remand,
the EDC errantly Dismissed the case for ‘gamesmanship’ under Rule 41(b), without
the trial court hearing anything further, it was Dismissed in its entirety, even after
Petitioner paid sanctions of $250 to comply and Amend filings with the court. In
appellant’s attempt to appease the court’s demand, Plaintiff requested the 9th
Circuit clarify the R & R Order, however without a final judgment, the NCCA
lacked subject jurisdiction. Deck later appealed to the 9th Circuit in an attempt to
stop the progressing wrongful foreclosure against his only residence. The 9th Circuit
DENIED Appellant’s Urgent Motion, and DISMISSED both his request for
rehearing, and his Emergent Motion to save his home from a wrongful foreclosure
(both without explanation), the case was closed. The case demands to be heard on
the merits, because no merits have been heard in the EDC, or the 9th Circuit.
Appellant has a 14th Amendment right to be heard by a competent court of law for
the proper adjudication, against the national banks moving to wrongfully steal his
home and life savings.
Two Void Judgments from the EDC- “NO STANDING”, and “GAMESMANSHIP”.
were entered in the Eastern District Court, Sacramento, CA, before the Magistrate
closed the case. The law is well-settled that a void order or judgment is void even
before reversal. Valley v. Northern Fire & Marine Ins. Co., 254 U.S. 348, 41 S. Ct.
116 (1920). “Courts are constituted by authority and they cannot go beyond that
power delegated to them.

If they act beyond that authority, and certainly in

contravention of it, their judgments and orders are resarded as nullities/ they are
not voidable, but simvlv void, and this even prior to reversal. ’’Williamson v. Berry,
8 HOW. 945, 510, 12 L. Ed. 1170, 1189 (1850).
When rule providing for relief from void judgments is applicable, relief is not a
discressionarv matter,

but mandatory! Orner v. Shalala, 30 F.3d 1307 (Colo.

1994). The judgment is a void judgment if the court that rendered the judgment
lacked jurisdiction of the subject matter, or of the parties, or acted in a manner
inconsistent with the due process of aw.

Fed Rules Civ. Proc., 60(b)(4), 28

U^SXJATrU.SiC.AT'Const7Amendr5'Klugh v. U.'S~620'FrSupp7892'(D:S:Crl985)

14

The Fraud and unfair dealing have now been further exposed in the wrongful
Unlawful Detainer Action filed against this Appellant in Placer County Superior
Court, by the purchaser following the wrongful Foreclosure Sale. Clearly a fraud
by intension for referring to a 2002 Deed of Trust, instead of the superseded 2008
Quit Claim Deed from the Marital Settlement Agreement (MSA) of the divorce
between Vernon Ray Deck and Heather Ann Summerby.
BACKGROUND
At 11 months into my second marriage, which only lasted 15 months, to a
Canadian nurse I worked with, we refinanced what had been my sole and separate
purchase as a single man (11/05/1999) prior to dating her. Chase Manhattan
Mortgage Company had put me into an Unwarranted Foreclosure and refused my
payments for five months. Thereafter, Option One Mortgage Company stated in
writing that based on a business decision they would refinance the loan, to allow
‘them’to “keep their home” ^changing the terms “his” to “them” and “their”) before
adding Summerby, then required Appellant to add his new wife to the refinanced
loan which was signed 11/05/2002. The errors I discovered later in that mortgage
have snowballed ever since in each transfer which followed, beginning with
AHMSI, then Homeward Residential. The Dissolution was Final on 07/11/2005.
Although the Dissolution’s MSA was not final until Feb. 15, 2008, it was not Ruled
a Judgment until Feb. 2013 (which is relevant with issues, and timeline, explained
elsewhere).
In late September of 2009, Option One lost its Business License in California due
to ethics violations, according to the Secretary of State’s Office in Sacramento. The
DOT was Assigned to Wells Fargo Bank N.A. (W/O the Note) as trustee for the
Option One Securities-Backed Chalet Series III Trust 2003-1, and Serviced by
Ocwen Loan Servicing, Inc. On 12/20/12 Wells Fargo Bank (WFB) filed a NOD,
along with the Assignment of DOT and the Substitution of Trustee. On 04/16/2014
WFB filed Notice of Sale and rescinded it on 05/16/2016.
On 09/27/2017 Wells Fargo Bank granted, assigned, and transferred the DOT to
~US'Bank~clearlyrwithin‘the~Automatic'Stay'ofDeck’s_BK~(in~effect'fronr07/25/2016
through the FINAL DECREE of 12/01/17), 6.5 months after the BK court’s
15

Scathing Minute Order dated 03/09/2017 and the voluntary withdrawal of Wells
Fargo Bank’s Motion to lift the Stay. The assignment was certainly Unlawful and
VOID.... and without the obligation of the Note to enforce. All assignments which
came after that point in time have intentionally been shell games to hide the facts
and illegally enrich the scheming players. MTGLQ received the Assignment of the
DOT from US Bank and reversed it back to US Bank N.A., Chalet Series 111 Trust
2003-1

However, nowhere in recorded documents can Appellant locate any

attempts by US Bank to return its assignment back to Wells Fargo Bank. Instead,
US Bank, N.A. continued the passage of the illegal transfer into another US Bank
Trust, Lodge Series III Trust 2003-1 to disguise it further, and ultimately “sold for
profit” at a foreclosure sale on 03/01/2021, to Redwood Holdings, LLC.
This had been magnified further with the intentionally inflated price sought at the
sale (see exhibits:NOD, NOS, and Verification of the sale details., Appendix B) to
enrich ONLY US Bank, without any proceeds to the Homeowner after he had made
$379,619.74 in payments toward a $306K note, which the banks claimed he was
not on, and selling it for $539,455.60 literally only one penny over First Call which
had been lowered from the published amount of the NOS of $550K. Furthermore,
Appellant, a homeowner since 1999, had paid over $300,000 in attorney fees
protecting his most valuable asset, before having to go pro per out of necessity. At
the time of the wrongful foreclosure sale, Heather Summerby was suspiciously
relieved completely of the obligation she testified to in her signed State and
Federal Declarations. She was then defaulted by Redwood Holdings, LLC in the
pending California Unlawful Detainer case (M-CV-0078624), of Placer County.
Redwood Holdings, LLC falsely served her at Deck’s sole property, without serving
her as an opponent in the UD case, and ignoring her 2008 QCD back to Deck; the
MSA ‘Stay-Away Order”; and the fact she moved out 1/27/2003, (18 years ago).
Only Deck was pursued to reclaim his sole and separate property. Summerby had
signed a Quit Claim Deed releasing her rights per the Dissolution MSA read onto
the record in open court 2/15/2008, (see Family Law Minute Order, Exh.# ll). The

her malice to separate this Appellant from his only residence after a 15-month
16

marriage, some eighteen years ago, and now needs to end in his favor.

Every

Mortgage Servicer listed in this complaint refused to pursue Heather Summerby,
even prior to her 2015 Declaration in CA State Court case # SCV 0035443, Ech.#
12, and again in the 2017 Federal Court case 2:i7-cv00234-MCE-KJN, Ech. #13,
where she insisted: “Ihave not assigned any liability to any other verson, not even
my ex-husband Vernon Ray Deck.” Summerby had no personal funds to anchor
any claims after signing the QCD in 2008.
Since the trial court's dismissal "with prejudice" was void, it may be attacked
either by direct appeal or collateral attack Ex parte Williams, No. 73,845
(Tex.Crim.App. 04/11/2001)."
This was plainly known by the EDC and by the NINTH Circuit Court in February
2021, absent any Comment or Order to stop these abuses. Appellant now submits
to SCOTUS, the evidence of intentional practices, by the Appellees for unjust
enrichment which is further believed to be a practice levied against a myriad of
other homeowners, and now seeks the adjudication of Justice on the merits, of an
eighteen (18) year journey to justice.

OTHER RELEVANT HISTORY
CA ■ FAMILY LAW — Relevant History connects the dots to proceedings
In the Federal Courts
- 1999 Vernon Deck’s Sole Purchase of 1124 Hawthorne Loop, Roseville, CA
- 2001 2nd Marriage to Heather Summerby
- 2002 Refi with Heather Summerby (November)
- 2003 Legal Separation from Heather Summerby(March)
- 2004 D.F. second property Set Aside for Undue Due Duress
Summerby’s Inter-Spousal Transfer Grant Deed VOIDED
- 2005 Dissolution Final
- 2008 Summerby Fraudulent transfer to R. & M. Russ Set aside in Family Court
under Family Codes §1101, §1102 Title was reformed, filed in Placer County,
CA DOC# 2005-0113523 - Reforming Title

17

- 2008 MSA -Summerbv QCD’s all interest back to Deck - Money Judgment
Entered - for Deck (Remains active) Case #_SM 001127093
- 2012 Summerby’s QCD for Roseville house - Filed in Placer County Jan. 10
- 2015 State Case (CA) Summerby’s Declaration she alone is on the NOTE.
2008 QCD’d filed in Placer County, CA

DOC #2012-0037410-00

U.S. Bankruptcy Court Eastern District of California — Sacramento
Re- Vernon Ray Deck
Case # 16-24854-E-7

Filed: 07/25/2016

Judge: Ronald J. Sargis *Civil Minute Date 03/09/2017 - DOC# 48- SCATHING*
Debtor Discharged: 12/27/2017

BANCRUPTCY MINUTE ORDER
Bankruptcy Discharge List - Ocwen
Wells Fargo Bank N.A. -Motion for Relief from the Automatic Stay, Page 2, second
paragraph: “It may well be that this is a directive from Movant to its attorneys
that they will do it the wells Fargo Bank way, hang any rules of the court.” And
further.......
“From the evidence provided, the court cannot determine whether Wells Fargo
Bank, N.A. is entitled to relief from the automatic stay. The Manderville
Declaration appears to be “testimony by proxy,” with Ocwen Loan Servicing
providing a “dummy declarant” who has no personal knowledge.”
- Judge R.H. Sargis

REASONS FOR GRANTING
- National Banks, Servicers establish diversity of citizenship in various States
- Case was never allowed to address the Merits — The merits were never reached by
any court of the causes and details perpetuating the frauds and injustice resulting
in Appellant’s unwarranted impoverishment.
- Appellant clearlylias"STANDING"1-theTNTNTH 'REVERSEDlmd'REMANDEDTor
this purpose.
18

- The Trial Court (EDC- Sac) avoided hearing the merits, in citing ‘gamesmanship
then claiming appellant failed to prosecute per Rule 41(b).
- After BK the note was VOID, against Appellant, but NOT Summerby, ONLY
Appellant was still pursued, until the Foreclosure sale, Summerby released.
Unlawful Foreclosure - Assigned during Federal Automatic Stay, and transferred
for the intent to flip it for profit.
Unjust Enrichment The Principal Shown was $ 274 K. NOD, US Bank Showed $
330K Notice of Trustee’s Sale, US Bank showed $ 450 K the Foreclosure Sale
Opening Bid was published at $ 550K, sold for $539,455.60, only one penny over
Auctioneer’s first call and the only bid.
■ Since the trial court's dismissal "with prejudice" was void, it may be attacked
either by direct appeal or collateral attack. Two foreclosure attempts, one in 2014,
another in 2016 were withdrawn because they were unlawful bulling attempts to
steel my property and equity, they did not have legal authority. On 3/1/2021 it was
illegally SOLD at foreclosure for inflated profit, with a Broken Chain of Title, and
fraudulently based on the 2002 DOT superseded in 2008 by a Marital Settlement
Agreement (MSA) and the Quit Claim Deed (QCD) in accordance with the terms of
the Dissolution’s MSA.
CA Contract law Statute of limitations is six (6) years from Date of last payment,
In 2012 I was told I had over paid the loan. In the EDC the Magistrate asked
when the last payment was made in reference to that 6-year Statute, which had
already run. This was moot from the Evidentiary Hearing. WFB and successors
have known this. When the Judgment is a void judgment, the court that rendered that
judgment acted in a manner inconsistent with due process, Fed. Rules Civ. Proc., Rule 60(b)
f4f, 28 U.S.C.A.. U.S.C.A. Const. Amend. 5 — Klugh v. U.S., 620 F.Supp. 892 (D.S.C. 1985).

STATEMENT REQUIRED NOTIFICATIONS HAVE BEEN MADE
RULE 29.4(B) OR (C)
-Attached are Certificates of Service for the notifications that "have"Been sent to
parties of interest in the matter waiting to be heard in this honorable court.
19

A DIRECT AND CONCISE ARGUMENT
It was on our second property in Dutch Flat, CA that originally alerted Appellant
to the irregularities manifested against his home in the present case.

The

Emergency against Appellant’s residence now cries out for the full attention of
SCOTUS, to administer equal justice in this case, and similar cases throughout the
nation.

Thel8-year journey demonstrates Repeated Assignments, and Unclean

Hands, winding its way to SCOTUS, because justice remains UNAJUDICATED
from the Federal and Appellate Courts, since the merits have never been reached.
Origination was initiated by an ex-wife’s trickery, and her

connections with

Mortgage bundlers in Canada, and then perpetuated through powerful connections
in the mortgage industry by National Banks, Servicers, Title Companies and
Attorneys robbing and stripping homeowners, and seniors, like me of their
Investment, Equity, and the Possession of their residences. Appellant’s case was
certainly not the only case which fuels this network. The devastation of these
family and our pursuit of Happiness.

CONCLUSION
Although the 2009 National Mortgage Settlement pursued by 49 A.G.’s may have
addressed issues and fined the banks and lenders, it has had no effect on my home
and that of countless other homeowners. We are still burdened by the hunger of
the Mortgage Locusts to wrongfully flip and service our properties for more and
more cash, while locking legitimate homeowners out of their homes.

Our great

country was founded on the principles of law and the personal freedoms of Life,
Liberty and the right to own property (in pursuit of happiness). It is the duty of
this court to equally apply the U.S. Constitutional rules of law to each case brought
before it, making Justice equal for all and blind to favoritism.

This Appellant

respectfully presents this case with the sincere hope it will bring justice to others,
and me, victimized by unlawful attempts to steal our AMERICAN DREAMS, and
find great resolve here. After the dreams that were so eloquently bestowed upon
us by our founding fathers, may their dreams remain alive through"-this courUof
law.

The time is ripe for this court to RESOLVE each of these questions of
20

national interest against the fiduciaries, to include their supporting subsidiaries
and representatives, against the homeowners of this great country
Appellant’s prayer for relief begins with: l) a request for certiorari review of the
EDO’s refusals to hear the merits of Appellant. Then, 2) correct the 9th Circuit’s
failure to entertain Appellant’s plea to save his home from the fraudulent transfers
culminating in the wrongful Foreclosure Sale of his primary residence, and his
unlawful eviction from it. And 3) establish a quicker means to stop this tragedy
from destroying the lives, families, and properties, which our Founding Fathers
intended so boldly to protect, that they ratified the 14th Amendment.
May God Bless America, and each Justice in serving our nation with equality from
this bench. With great respect,
Thank you all so much,

Vernon Deck, pro se Appellant

21

